     AUDIT OF THE USAGE OF
FACILITY MANAGEMENT SCHEDULES
   PUBLIC BUILDINGS SERVICE
REPORT NUMBER A050135/P/9/R06006
          MARCH 31, 2006
                      Field Audit Office, Pacific Rim Region (JA-9)
                        450 Golden Gate Avenue, Room 7-5262
                             San Francisco, CA 94102-3434

Date:               March 31, 2006

Reply to
Attn of:            Audit Manager, San Francisco Field Audit Office (JA-9)

Subject:            Audit of Usage of Facilities Management Schedules
                    Public Buildings Service
                    Report Number A050135/P/9/R06006

To:                 David L. Winstead
                    Commissioner, Public Buildings Service (P)


The San Francisco Field Audit Office conducted a review of the Public Building
Service’s (PBS) use of the facilities maintenance and management multiple award
schedule contracts. The audit was included in the Office of Inspector General’s fiscal
year 2005 Annual Audit Plan.


BACKGROUND

In June of 2000, the Federal Supply Service (FSS) and PBS formed an acquisition
partnership with the goal of developing national contracting schedules to provide facility
management services. The partnership leveraged the facilities knowledge of PBS to
write the technical scope of the contracts with the acquisition expertise of FSS in
awarding the contracts. PBS supported the effort because it felt 1) the use of the
schedules would save time and effort in the procurement process as FSS pre-qualifies
the vendors and completes all up front procurement, 2) the use of the schedules would
save money because FSS negotiates “most favored” pricing and cumulative discounts
and 3) use of the MAS program takes advantage of the FSS services to promote a “One
GSA” approach.

The Center for Facilities Maintenance and Hardware established the 03FAC Facilities
Maintenance and Management Schedule in January 2003. Services offered include
complete facilities maintenance, elevator and escalator preventive maintenance,
landscaping, pest control, and fire alarm maintenance and testing.       Schedule
information resides in GSA Advantage, FSS’ on-line shopping site and the E-Library,
the online source for schedule contracts.
To promote use of the schedules, PBS’ Office of Organizational Resources, Vendor
Acquisition Division, issued a Procurement Information Bulletin (PIB) regarding the
03FAC Schedule on August 19, 2004. The PIB requires that as part of the market
survey phase PBS acquisition associates review MAS offerings before selecting an
acquisition method. If MAS is not used, PBS staff should document their rationale in the
contract file and send a copy to Vendor Acquisitions Division

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to answer the following question: Did PBS effectively
utilize the FSS schedules?

To accomplish the objective, we determined the amount of PBS usage in calendar year
2004 from the Federal Procurement Data System. We held discussions with PBS
officials at the National Office (Washington D.C.), Pacific Rim Region
(San Francisco, CA) Southeast Sunbelt Region (Atlanta, GA), Northeast Caribbean
Region (New York, NY) Heartland Region (Kansas City, MO) and the Rocky Mountain
Region (Denver, CO). We also held discussions with FSS staff in the Center for
Facilities Maintenance and Hardware in Kansas City, MO. In addition, we reviewed
43 facility service contracts, both MAS and non-MAS, which were in effect in the
Regions during 2004 and 2005. We performed a limited price analysis between MAS
and non-MAS contracts, and we compared the timing differences for awarding MAS and
non-MAS contracts.

The audit was conducted in accordance with generally accepted government auditing
standards.

RESULTS OF REVIEW

Our review determined that PBS is not making extensive use of the facilities
maintenance schedules. These schedules were envisioned to be an effective tool to
make more effective use of PBS’ time and money and to take advantage of FSS
product offerings. Some PBS regional associates questioned the benefits of the
schedules, while others have encountered various obstacles when trying to use the
schedules. We also found that PBS associates were not adhering to the PIB
instructions issued by PBS. As a result, since PBS has not fully utilized the schedules,
PBS has not realized the potential for time and cost savings originally envisioned.

We reviewed PBS purchases in five Regions, and found that use of the schedules by
PBS in 2004 was significantly low, in comparison to the total amount of facilities
maintenance contracting by PBS. Further, the level of usage varied among the
Regions.



                                           2
Through our interviews with PBS associates and our review of recent facility service
contracts, we identified a number of obstacles that PBS needs to address before it can
effectively implement use of FSS facility maintenance schedules. In particular, we
noted obstacles in the areas of cultural resistance to schedules usage and difficulties in
using the schedules.

We identified three areas of cultural resistance to change from open market to the
schedules. First, PBS staff was not convinced that the use of the schedules would save
time and money since no business case exists. Also, during our discussions with
Regional staff, we noted some were unfamiliar with the schedules or with the PIB.
Lastly, differences in support of the schedules by Regional PBS management were also
a factor to schedules usage.

We were unable to determine conclusively through our audit work if use of the
schedules saves money. An un-audited PBS study of elevator maintenance prices
concluded PBS was achieving better pricing without utilizing the schedules. However,
we did find evidence that use of the schedules saved time for PBS associates,
especially in smaller acquisitions.

PBS staff who did use the schedules identified some obstacles that hindered increased
usage. They expressed concern that the schedules did not have enough contractors to
provide for adequate competition or provide opportunities to meet socio-economic
contracting goals. Also, PBS staff generally exercised options on existing non-MAS
contracts, rather than re-issue new contracts. This reduced the immediate opportunity
to maximize MAS usage. Further, PBS often combines a number of facility services
into one contract. While this reduces administrative burden, it minimizes the potential
for individual schedule awards. Finally, schedule vendors are not required to respond to
Requests for Quotation.

We presented the results of our review to PBS management in Central Office on
December 20, 2005. A copy of the complete discussion of the results of audit and
recommendations can be found in Appendix A.


RECOMMENDATIONS

We recommend that the Commissioner, Public Buildings Service, continue to evaluate
the most efficient and effective approach to facility management contracting. This
should include:

   1. Fostering awareness and compliance with the PIB guidelines that direct
      consideration of the MAS during the market survey phase and require
      documentation of non-usage of the schedules.


                                            3
   2. Assessing how the MAS schedule can best serve PBS’s need for facility
      maintenance contracting based on information in this report, the documentation
      in response to the PIB and other sources. Work in partnership with FSS to
      address the limitations, which include:

          a.   Ability of the schedules to meet PBS socioeconomic contracting goals;
          b.   Lack of competition due to limited contractors on schedule;
          c.   Existing non-MAS facility service contracts;
          d.   Use of larger contracts that combine services;
          e.   Lack of contractor responses to MAS Requests for Quotations; and
          f.   Lack of staff familiarity with the schedules.


MANAGEMENT’S COMMENTS

The PBS Commissioner recognized the need to further study the facilities management
schedules program and to coordinate PBS’ efforts with FSS. While the schedules are
an available contracting tool, the Commissioner noted that no policy exists mandating
their use. In addition, he indicated that the Office of Inspector General’s draft report did
not provide sufficient information to reach a definitive conclusion on the viability of the
program.

The Commissioner’s response is included in its entirety in Appendix B to this report.


OFFICE OF INSPECTOR GENERAL’S RESPONSE

As noted in Appendix A, page A-22, PBS had not effectively made a business case that
using the MAS results in savings in money and time. Therefore, we recommended that
PBS assess how the schedules can best serve PBS’s need for facility maintenance
contracting in conjunction with FSS.


INTERNAL CONTROLS

The examination of internal controls was limited to those necessary to achieve the
specific objectives and scope of the audit.




                                             4
We wish to thank you and your staff for the courtesies extended to the auditors during
this review. Should you or your staff have any questions concerning this review, please
contact me or Gary Vincent, Auditor-in-Charge at (415) 522-2744.




PERLA CORPUS
Audit Manager (JA-9)
San Francisco Field Audit Office




                                          5
         Audit of the Usage of
  Facilities Management Schedules
       Public Buildings Service
Report Number A050135/P/9/R06006


         Appendix A

         Regional Inspector General for Auditing:
           Joseph Brewster
         Audit Manager: Perla Corpus
         Auditor in Charge: Gary Vincent
         Auditor: Jeffrey Funk



                   A-1
Background – Acquisition Partnership

¾In June 2000, the Public Buildings Service
 (PBS) and the Federal Supply Service
 (FSS) agreed to form an Acquisition
 Partnership.
¾The Partnership objectives were to seek out
 best value contractors and offer facilities
 maintenance services through the MAS
 schedule.
                     A-2
    Background – Acquisition Partnership

¾ The Partnership leveraged the facilities knowledge of
  PBS and the acquisition expertise of FSS to achieve a
  fully integrated, “one GSA” approach to service delivery,
  saving PBS associates time and money.
¾ Former PBS Commissioner F. Joseph Moravec stated
  “This program is a model for the kind of value-added
  service PBS associates deserve. The business case is
  compelling; it is pre-packaged to minimize time and
  effort; saves the taxpayers money; improves our ability to
  manage the consistency and quality of an important
  service; and takes full advantage of our sister service’s
  product offerings. Home run!”
                              A-3
  Background – Acquisition Partnership

¾The FSS Center for Facilities Maintenance
 and Hardware (CFMH) awarded the
 Facilities Maintenance and Management
 Schedule 03FAC in January 2003.
¾The schedule is included in GSA
 Advantage, FSS’ on-line shopping site and
 the E-Library, the online source for
 schedule contracts.
                    A-4
    Background – Socio-economic Goals
¾ GSA has contracting goals to promote
  opportunities in its acquisitions to small business,
  veteran-owned small business, service-disabled
  veteran-owned small business, HUBZone small
  business, small disadvantaged business, and
  women-owned small business concerns. These
  are generally known as the socio-economic goals.
¾ GSA has set aside contracts for these targeted
  vendors.
¾ The E-Library indicates if the contractor on
  schedule falls under one of the above socio-
  economic categories.
                          A-5
Background – Facilities Schedule

¾ The Facilities Maintenance and Management Schedule
  (03FAC) offers :
    Complete facilities maintenance
    Complete facilities management
    Elevator maintenance and inspection
    Fire alarm maintenance and testing
    Grounds maintenance
    Pest control
    Electrical and utility services maintenance
    Refrigeration, heating, ventilation and air conditioning
     maintenance


                                  A-6
Background – PBS Policy

¾ PBS’ Office of Organizational Resources, Vendor
  Acquisition Division, issued a Procurement Information
  Bulletin (PIB) regarding the 03FAC Schedule on
  August 19, 2004*.
¾ The PIB requires that as part of the market survey phase
  PBS acquisition associates review MAS offerings before
  selecting an acquisition method. If MAS is not used, PBS
  staff should document their rationale in the contract file
  and send a copy to Vendor Acquisitions Division, PBS
  Central Office.

* Procurement Information Bulletin No. PBS-MAS-03FAC 072004-02 Subject: Use of Federal Supply Schedule
    03FAC, Facilities Maintenance and Management


                                                   A-7
Audit Objective, Scope and Methodology

Audit Objective:


¾Did PBS effectively utilize the Facilities
 Maintenance Schedules?




                       A-8
 Audit Objective, Scope and Methodology

Scope:
¾ We examined facility service contracts in the
  Pacific Rim Region, Southeast Sunbelt Region,
  Northeast Caribbean Region, Heartland Region
  and Rocky Mountain Region.
¾ We determined the amount of PBS purchases
  made through the 03FAC schedule in Calendar
  Year (CY) 2004 from the Federal Procurement
  Data System (FPDS). We did not verify the
  completeness or accuracy of the FPDS data
  during our fieldwork.

                       A-9
 Audit Objective, Scope and Methodology


Scope:
¾ Our audit work was performed during the period
  from March to September 2005 in accordance
  with generally accepted auditing standards.




                        A-10
 Audit Objective, Scope and Methodology

Methodology: In performing our field work, we:
¾ Held discussions with PBS officials in Central Office,
  Pacific Rim Region, Southeast Sunbelt Region, Northeast
  Caribbean Region, Heartland Region and Rocky
  Mountain Region;
¾ Held discussions with FSS staff in the Center for
  Facilities Maintenance and Hardware in Kansas City,
  Missouri;
¾ Reviewed 43 facility service contracts, both MAS and
  non-MAS, in place in the Regions in CYs 2004 and 2005;
¾ Reviewed contracting information available on GSA
  Advantage;

                           A-11
Audit Objective, Scope and Methodology

Methodology:
¾ Performed a limited price analysis between MAS
  and non-MAS contracts;
¾ Reviewed the contracting procedures that are
  currently in use by contracting officers; and
¾ Compared timing differences for awarding MAS
  and non-MAS contracts.
Internal Controls
¾ The examination of internal controls was limited
  to those necessary to achieve the specific
  objectives and scope of the audit.
                       A-12
             Results in Brief

¾PBS is not making extensive use of the
 facilities maintenance schedules. These
 schedules were envisioned to be a valuable
 tool to make more effective use of PBS
 time and money and to take advantage of
 FSS product offerings.
¾Some PBS Regional Associates have
 questioned the benefits of the schedules,
 while others have encountered obstacles
 when trying to use the schedules.
                    A-13
             Results in Brief

¾We also found that PBS Associates are not
 adhering to the PIB instructions issued by
 PBS. As a result, the National Office was
 not receiving information on why the
 Regions are not using the schedule.
¾Since PBS is not fully utilizing the
 schedules, PBS is not realizing the
 potential for time and costs savings
 originally envisioned.
                    A-14
             Results of Review
           National and Regional Data

¾ We reviewed PBS schedule purchases in five
  Regions. These Regions accounted for 27 of the
  74 task orders (or 36 percent) and 90 percent of
  the amount spent by PBS through the schedule
  for facility maintenance in CY 2004, according to
  the Federal Procurement Data System (FPDS).
¾ We found that use of the schedules by PBS in
  2004 was low, in comparison to the total amount
  of facilities maintenance contracting by PBS.
                        A-15
                                   Results of Review
                            National and Regional Data
         Region                     MAS task orders                      Total Spending on
                                       2004 *                           Facility Maintenance
                                                                          Services 2004**
         Region 2                          $9,483,103                           $66,013,246
         Region 4                               $60,808                         $40,547,965
         Region 6                             $118,129                          $31,496,410
         Region 8                          $2,145,148                           $24,982,595
         Region 9                                -0-                            $52,062,712
*These figures were taken from a FPDS report generated by GSA’s Office of Government wide Policy for CY 2004
       listing of task orders issued by PBS against the 03FAC schedule contracts numbers. Data for CY 2004 showed
       a total of $28,920,763 in task orders issued for all regions. On the two task orders in Region 2, the amounts
       entered into FPDS by the region were multi year values. For comparability to the other regions, this chart
       reflects the first year values for those two task orders.
** To estimate the amount of facility maintenance service dollars spent by PBS we referred to the Federal Building
       Fund Income Statement for Direct Operations for FY 2004. The dollars in this column represent the total of
       the accounts for cleaning, fire protection, mechanical maintenance, and building support.
                                                         A-16
                 Results of Review
Regional Variations
¾ While overall usage of the schedules is low, the level of
  usage can vary by Region. Some Regions are further
  along in adopting the schedules than others.
¾ Regional differences include:
   9 Dollar value and types of facility services (ranging
     from multi-million dollar complete facilities
     maintenance contracts to pest and landscaping
     services under $4,000)
   9 Organizational Level-Issuance of task orders
     (Regional service center level versus ordering by field
     offices)
                             A-17
                  Results of Review
Regional Variations
¾ The Northeast Caribbean Region has awarded two task
  orders for operations and maintenance for large federal
  buildings.
¾ The Rocky Mountain Region used the schedule for snow
  removal and landscaping services for the Denver Federal
  Center; no other regional locations used the schedule.
¾ The Heartland Region used the schedule for proprietary
  fire alarm inspection task orders at the field office level,
  but no task orders have been awarded at the service center
  level.
¾ The Southeast Sunbelt Region issued a variety of task
  orders for small amounts, each under $20,000.
¾ The Pacific Rim Region have not issued any task orders.
                             A-18
              Results of Review

¾ The overall low level of schedules usage and
  the regional variations indicate that there are
  obstacles PBS needs to address before they can
  effectively implement the use of the facility
  maintenance schedules by the PBS contracting
  staff.
¾ During our fieldwork we identified several
  obstacles experienced by PBS Associates.


                       A-19
            Results of Review

¾ Obstacles to increased usage of the
   schedules can be grouped into two
   general categories:
1. Cultural resistance by PBS Associates
2. Limitations of the Facility Maintenance
   Schedules


                     A-20
             Results of Review

¾We identified 3 areas of cultural resistance
 to increased schedules usage:
  Staff’s perception that the schedule is not
   adding value;
  Lack of familiarity by staff with the PIB
   requirements and the schedules themselves,
   especially at the field office level; and
  Inconsistent support for schedule usage by
   Regional management.

                       A-21
               Results of Review

Not Adding Value
¾ In our discussions with PBS staff, we were often
  told that the PBS had not effectively made a
  business case that using the MAS results in
  savings in money and time in comparison to the
  current contracting methods.




                        A-22
                     Results of Review

Not Adding Value
Pricing: PBS staff were doubtful they can achieve more favorable
   pricing by using the FSS schedule. They note that the number of
   contractors is limited. As a result, contracting staff felt they can
   attract more offers and competition, and therefore more favorable
   pricing, by working with local vendors rather than using the FSS
   schedule.
Time: Further, some PBS staff were not convinced that use of the
   MAS schedule saves them time. They noted that while use of the
   FSS schedule avoided some marketing efforts, once offers were
   received the process to complete the award was similar to non-MAS
   procurements. In both scenarios, a Statement of Work must be
   written, a building walkthrough held, offers evaluated, negotiations
   held, and the award made.
                                   A-23
             Results of Review

Pricing Analysis
• We attempted to determine if PBS could have
  achieved lower pricing by using the schedules.
• During our visits to the Regions, we reviewed
  contract files for facility service procurements
  that did not use the schedule. We hoped to use
  the contract prices in these files to compare to
  FSS schedule prices.
• We referred to GSA Advantage to review the
  FSS schedule pricelist for those facility services.
                         A-24
               Results of Review
Pricing Analysis

¾ We found that most schedule pricelists on GSA
  Advantage are based on hourly rates per labor
  category.
¾ Pricing could not be determined until the
  Statement of Work is sent to the contractor to
  determine the level of effort and labor mix
  necessary.
¾ Also, some contractors did not have pricelists on
  GSA Advantage. They asked to be contacted for
  pricing.
                        A-25
               Results of Review
Pricing Analysis

¾ Due to these obstacles, we were able to perform a
  price comparison between schedule and non
  schedule contracts only in the areas of 1) pest
  control, 2) elevator inspection, and 3) operations
  and maintenance.
¾ In these cases, certain FSS contractors had
  pricelists based on the square footage of the
  building or on a per inspection basis, rather than
  the hourly rate per labor category.
                        A-26
                     Results of Review
Pricing Analysis
¾ For these three contract areas reviewed, the results of the price
  analysis were mixed.
        Region     Favorable Contract          Service
                   Type
        Region 9   FSS                         Pest Control in buildings in
                                               Oakland,CA area

        Region 2   FSS                         Elevator inspections for buildings
                                               in or near New York City, NY

        Region 9   Open Market                 Operations and Maintenance of the
                                               Burton Federal Building,
                                               San Francisco, CA
        Region 4   Open Market                 Pest control in buildings in
                                               Atlanta, GA
        Region 4   Open Market                 Elevator inspections for buildings
                                               in GA (Atlanta, Savannah) & KY
                                               (Louisville)


¾ No trend can be seen to favor one method over the other.
                                        A-27
                 Results of Review
Pricing Analysis - Elevators
¾ We received another perspective on pricing from a PBS
  effort to analyze elevator maintenance pricing.
¾ PBS awarded Multi-Region Elevator Maintenance &
  Repair contracts in 1996. The contracts encompass four
  regions, 23 states and 270 sites. Three vendors
  (Thyssen-Krupp, KONE, and Schindler), participated in
  both the multi-region contract and the FSS schedule.
¾ The multi-region contracts are managed by a PBS team
  that conducted a study to determine whether these
  contracts are a better value than the MAS elevator
  maintenance contracts.
                           A-28
                 Results of Review
Pricing Analysis - Elevators
¾ The PBS team decided on a two-fold methodology to do
  the pricing comparison.
¾ First, PBS staff in the Rocky Mountain Region used the
  vendor’s FSS schedule pricelists to price the 142 elevator
  units in the Region and then compared the results against
  the existing multi-region price.
¾ Second, the PBS team requested the three multi-Region
  elevator vendors also on schedule to compare their FSS
  price with the multi-region contract price. The team was
  able to secure an agreement from the vendor’s
  National Account Representatives to analyze actual
  FSS pricing for two buildings per Region (8 total) as
                             A-29
  a sample.
                 Results of Review
Pricing Analysis - Elevator
¾ The results of the pricing comparisons were:

    The PBS in-house price comparison for the elevators in the
     Heartland Region showed that for two of the three vendors,
     the multi-region price was lower than the FSS schedule
     price.
    The vendors own analysis of the elevators selected
     showed that for all three vendors, the multi-region price
     was lower than the FSS schedule price.

¾ The PBS team concluded that the multi-region
  elevator maintenance and repair contracts are a
  better value to GSA. The team decided to exercise
  the last five-year option A-30
                            of the contracts.
                    Results of Review
Pricing Analysis
¾ Further, the PBS team indicated that various terms
  and conditions in the multi-region contract were
  more favorable than those in the FSS schedule
  contract.
¾ The multi-region contract included:
   ¾   Measurable performance criteria;
   ¾   Unilateral right to remove work for any reason;
   ¾   Discounts on repair and construction work;
   ¾   Technology upgrades; and
   ¾   Contractor requirement to take any location “as is”.


                                A-31
                     Results of Review
Potential Time Saving
¾ During our site visits to the five Regions, we reviewed 43 facility
  service contracts, both MAS and non-MAS, in place in the Regions
  in CYs 2004 and 2005. We noted the time taken to award each
  contract, measured from the date of the solicitation issuance to the
  date of award. Our goal was to compare the the time to award
  through the schedules versus using open market procedures.
¾ The contracts reviewed, both MAS and non-MAS, are diverse both in
  the service provided and the dollars involved. Contracts range from
  complete building maintenance at $6 million per year to pest control
  at $3,000 per year.
¾ In order for a comparison to be fair and useful, we decided to group
  the contracts into two categories 1) greater than $100,000 and 2) less
  than or equal to $100,000.

                                  A-32
                   Results of Review
Potential Time Saving
Over $100,000                        $100,000 and Below
MAS                  129 days        MAS                26 days
Open Market          133 days        Open Market        54 days
¾ In our discussions, the PBS acquisition associates noted that
  the major time savings gained by using the MAS schedules is
  in the marketing of the acquisition. The MAS provides a pre-
  qualified list of vendors, whereas open market procurement
  generally requires soliciting vendors through Fed Biz Ops.
  Our results indicate this time saving may be more significant
  on smaller acquisitions than larger.
¾ While the MAS vendors are pre-qualified, we noted that on
  larger, more complex acquisitions, such as complete facilities
  maintenance, PBS staff still are more likely to perform a
  technical evaluation, (check references, evaluate proposals,
  etc.) This reduces the time savings from MAS and may
  explain why time savings were not experienced on larger
  awards.
                               A-33
                  Results of Review

Lack of familiarity with PIB and Schedules
¾ During our discussions with PBS acquisition associates in
  the Regions, we found many were unaware of the PIB that
  documented the PBS policy regarding use of the schedule.
¾ Our review of non-MAS contract files indicated that few
  of the files had the required justification for non-use. Of
  the eight non-MAS contract files we reviewed that were
  awarded after the issuance of the PIB, only two (or 25
  percent) had the justification.
¾ Therefore, the PBS Central Office was not receiving vital
  information as to why the Regions were not using the
  schedules.
                             A-34
                 Results of Review
Lack of familiarity with PIB and Schedules
¾ Further, when we discussed the schedule with acquisition
  staff in the Regions, we found some staff were unaware
  of the existence of the facility maintenance schedules
  themselves.
¾ Despite significant FSS training efforts, PBS staff,
  especially at the field office level, were unaware of the
  services available under the 03FAC Federal Supply
  Schedule.
¾ Field offices generally have authority to award smaller
  landscaping and pest control contracts,
¾ Consequently, increased knowledge of the schedules may
  promote usage.

                            A-35
                 Results of Review
Management Support
¾ During our fieldwork in the five Regions, we found that
  the level of active support by PBS management affects
  the usage of schedules.
¾ For example, the Region with the largest use of the
  schedules, by dollar value, had Regional PBS
  management actively promoting schedule use by the
  contracting staff.
¾ In contrast, another Region’s management professed
  support for the schedules, but that support did not flow
  down to the contracting staff, who generally opposed
  using the schedules.

                            A-36
                 Results of Review
Limitations of Using the Schedules
¾ PBS acquisition associates, whom we
  interviewed during field work, identified a
  number of obstacles that hinder usage of the
  schedule:
      Socio-economic goals;
      Lack of competition due to limited numbers of
       contractors on schedule;
      Existing non-schedule contracts;
      Combination of different facility services into one
       contract; and
      Insufficient contractor response to MAS Requests for
       Proposal.
                            A-37
                   Results of Review
Socio-economic goals
  In our discussions with contracting staff, they mentioned they
   utilize the facility service contracts to meet the agency’s socio-
   economic goals.
  As we reviewed facility service contract files in the Regions,
   almost all non-MAS awards were small business set asides or to
   other socio-economic providers.
  The FSS schedule does provide access to small business.
   However, the nature of some of the service markets, such as
   grounds maintenance, is that the businesses tend to operate only
   in their local geographic areas. The schedule would have to
   provide vast numbers of small businesses for nationwide
   coverage.


                                 A-38
                       Results of Review
Limited numbers of contractors available
    The number of contractors available varies by Special Item
     Number on the schedule, from Elevator Inspection (10
     contractors) to Complete Facilities Maintenance (41
     contractors).*
    Fewer contractors generally means less price competition and
     less price comparability.
    Some contracting staff expressed preference with working with
     locally based contractors. They stated that they experience better
     working relationships with local companies versus national
     contractors.

   * As of July 2005


                                 A-39
                      Results of Review

Limited numbers of contractors available
   FSS is working to increase the number of contractors
    available on schedule. The number has been
    increasing since the inception of the program:
              Contractors placed            Total
                on schedule               Contractors
       2001         4                          4
       2002         8                         12
       2003        13                         25
       2004        37                         62
       2005           39*                    101
   So, only in the past two years have significant
    numbers of contractors been available.
   *as of 8/22/2005
                                   A-40
                  Results of Review
Pre-existing contracts
 Most non-MAS contract awards for facility services are
  for one base year with yearly options, usually four 1-year
  options.
 PBS staff indicated it would increase the administrative
  burden to not exercise options. Therefore, it is only after
  the existing facility service contract terms expire that the
  contracting opportunities for MAS use will be maximized
  in PBS.
 The multi-region elevator contract is an example of an
  existing contractual relationship that pre-dates the
  schedule. PBS Regions that are involved have decided
  that it is beneficial to exercise the final 5-year contract
  option.
                             A-41
                Results of Review

Combined Contracts
 PBS tends to award building services using larger,
  combined contracts. This lessens the opportunity to have
  individual MAS awards.
 For example, the janitorial contract often includes the
  grounds maintenance and pest control. Janitorial service
  is not a offered as a separate Special Item Number on the
  schedule, while pest and grounds are.
 The complete facility maintenance offered on schedule
  does allow vendors to combine individual facility
  services. However, fewer vendors offer this service than
  offer the facility services separately.
 Also, breaking up the combined contracts into individual
  awards to increase use of the MAS would add to PBS
  administrative burden. A-42
                Results of Review
Lack of contractor response or participation
  Contractors on schedule are not required to respond to
   Requests for Quotations. We noted schedule
   procurements where either only one offer was
   received or no offers were received.
  Contractors that PBS used before the schedule came
   into existence may not be interested in participating in
   the schedules program because of the time required to
   get on schedule. Getting PBS preferred contractors
   on schedule requires lead time. FSS’ goal is to get a
   new contractor on the schedule within 68 days.


                           A-43
       Results of Review: Conclusions

¾ We attributed PBS’ limited usage of the
  schedules to several factors.
¾ When introducing this new form of procurement,
  PBS faced the challenge of creating a culture
  within its staff who may or may not have been
  receptive to the potential advantages of utilizing
  the schedules.
¾ Further, PBS has experienced little success in
  overcoming obstacles such as the cultural
  resistance and the limitations of the schedule that
  have hindered usage of the schedule.
                         A-44
      Results of Review: Conclusions

¾PBS’ current policy statement on MAS has
 been ineffective in promoting usage.
¾We found that generally time savings were
 realized by use of the schedules. Also, we
 heard positive responses on time savings
 from PBS acquisition associates who used
 the schedules.


                     A-45
      Results of Review: Conclusions

¾As FSS continues its efforts to add
 contractors on schedule and as the facility
 maintenance contracts currently in place
 expire, the opportunities for further MAS
 usage will increase.
¾If PBS’ long term goal is to support the use
 of the schedules, PBS must address these
 issues.
                     A-46
                   Recommendations
¾   We recommend that the Commissioner, Public Buildings Service,
    continue to evaluate the most efficient and effective approach to
    facility management contracting. This should include:
      1.   Fostering awareness and compliance with the PIB guidelines that direct
           consideration of the MAS during the market survey phase and require
           documentation on non-usage of the schedules.
      2.   Assessing how the MAS schedule can best serve PBS’s need for facility
           maintenance contracting based on information in this report, the
           documentation in response to the PIB and other sources. Work in
           partnership with FSS to address the limitations, which include:
           a. Ability of the schedules to meet PBS socioeconomic contracting
                goals;
           b. Lack of competition due to limited contractors on schedule;
           c. Existing non-MAS facility service contracts;
           d. Use of larger contracts that combine services;
           e. Lack of contractor responses to MAS Requests for Quotations; and
           f. Lack of familiarity with the PBS schedules.

                                     A-47
B-1
                              AUDIT OF THE USAGE OF
                         FACILITY MANAGEMENT SCHEDULES
                             PUBLIC BUILDINGS SERVICE
                         REPORT NUMBER A050135/P/9/R06006


                                  REPORT DISTRIBUTION

                                                                               COPIES

Commissioner, Public Buildings Service (P)                                        3

Regional Administrator (2A, 4A, 6A, 8A, 9A)                                       5

Chief, Audit Follow-up and Evaluation Branch (BECA)                               1

Assistant Inspector General for Auditing (JA)                                     1

Director, Policy Plans & Operations Staff (JAO)                                   1

Regional Inspector General for Audits (JA-2, JA-4, JA-6)                          3

Special Agent In Charge for Investigations (JI-2, JI-5, JI-5/KC, JI-7, JI-9)      5

Acting Assistant Inspector General for Investigations (JI)                        1

Office of the Chief Financial Officer (B)                                         2

Deputy Assistant Inspector General for Real Property Audits (JA-R)                1




                                              C-1
